TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Internal Revenue Service Is Not in
                   Compliance With All Improper Payments
                 Elimination and Recovery Act Requirements



                                          March 2, 2012

                              Reference Number: 2012-40-028




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


THE INTERNAL REVENUE SERVICE IS                      of improper payments. The IRS compiles the
NOT IN COMPLIANCE WITH ALL                           required information and forwards it to the
IMPROPER PAYMENTS ELIMINATION                        Department of the Treasury for inclusion in the
AND RECOVERY ACT REQUIREMENTS                        Department’s agency financial report.
                                                     Our analysis of the information the IRS provided
                                                     to the Department of the Treasury showed that
Highlights                                           the IRS is not in compliance with all Improper
                                                     Payments Elimination and Recovery Act
Final Report issued on March 2, 2012                 requirements. The IRS has not established
                                                     annual EITC improper payment reduction
Highlights of Reference Number: 2012-40-028          targets and has not computed a gross estimate
to the Internal Revenue Service Chief Financial      of EITC improper payments as the estimate
Officer.                                             does not include underpayments. An
                                                     underpayment results when an EITC payment is
IMPACT ON TAXPAYERS                                  made in an amount less than what an individual
The Improper Payments Elimination and                is entitled to receive.
Recovery Act of 2010 increased agency                The IRS has plans in place to establish EITC
accountability for reducing improper payments in     reduction targets and is exploring the feasibility
Federal programs. The only program the IRS           of computing an improper payment estimate for
has identified for improper payment reporting is     EITC underpayments.
the Earned Income Tax Credit (EITC) Program.
The IRS estimates that 21 to 26 percent of EITC      WHAT TIGTA RECOMMENDED
payments were issued improperly in Fiscal
Year 2011. This equates to $13.7 billion to          TIGTA made no recommendations in this report.
$16.7 billion in EITC improper payments.
WHY TIGTA DID THE AUDIT
This audit was initiated because the Improper
Payments Elimination and Recovery Act of 2010
requires the TIGTA to assess the IRS’s
compliance with improper payment
requirements. The objective of this review was
to assess the IRS’s compliance with the
Improper Payments Elimination and Recovery
Act of 2010. The scope of this review was
limited to an assessment of EITC information the
IRS provided for inclusion in the Department of
the Treasury Agency Financial Report Fiscal
Year 2011.
WHAT TIGTA FOUND
The methodology the IRS uses to estimate the
EITC improper payment rate results in a
reasonable estimate of EITC overclaims.
However, the IRS did not comply with all of the
improper payment requirements included in the
Improper Payments Elimination and Recovery
Act.
The Department of the Treasury identifies the
programs for which the IRS must assess the risk
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              March 2, 2012


 MEMORANDUM FOR THE CHIEF FINANCIAL OFFICER



 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Internal Revenue Service Is Not in
                              Compliance With All Improper Payments Elimination and Recovery
                              Act Requirements (Audit # 201240011)

 This report represents the results of our review to assess the Internal Revenue Service’s (IRS)
 compliance with the Improper Payments Elimination and Recovery Act (IPERA) of 2010.1 The
 IPERA requires the Treasury Inspector General for Tax Administration to review annually the
 IRS’s compliance with the IPERA reporting requirements. This audit is included in the Treasury
 Inspector General for Tax Administration’s Fiscal Year 2012 Annual Audit Plan and addresses
 the major management challenge of Fraudulent Claims and Improper Payments.
 Management’s complete response to the draft report is included as Appendix V.
 Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
 Inspector General for Audit (Returns Processing and Account Services), at (202) 622-5916.




 1
     Pub. L. 111-204.
                       The Internal Revenue Service Is Not in Compliance With All
                     Improper Payments Elimination and Recovery Act Requirements




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Is Not in Compliance With All Improper
          Payments Elimination and Recovery Act Requirements .............................. Page 4
          The Estimate of the Earned Income Tax Credit Improper Payment Rate
          Provides a Reasonable Estimate of Overclaims............................................ Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Internal Revenue Service Programs Identified for Improper
          Payment Risk Assessments ........................................................................... Page 13
          Appenix V – Management’s Response to the Draft Report ......................... Page 15
          The Internal Revenue Service Is Not in Compliance With All
        Improper Payments Elimination and Recovery Act Requirements




                        Abbreviations

EITC              Earned Income Tax Credit
FY                Fiscal Year
IPERA             Improper Payments Elimination and Recovery Act of 2010
IRS               Internal Revenue Service
NRP               National Research Program
TIGTA             Treasury Inspector General for Tax Administration
                      The Internal Revenue Service Is Not in Compliance With All
                    Improper Payments Elimination and Recovery Act Requirements




                                           Background

The Improper Payment Information Act of 20021 requires Federal agencies, including the
Internal Revenue Service (IRS), to estimate the amount of improper payments made each year.
The agencies must report to Congress on the causes and the steps taken to reduce improper
payments and address whether they have the information systems and other infrastructure needed
to reduce improper payments. Agencies must also describe the steps taken to ensure managers
are held accountable for reducing improper payments.

Executive Order 13520 further increases Federal Agency accountability in
reducing improper payments
Executive Order 13520, signed by President Obama on November 20, 2009, further increases
Federal agencies’ accountability for reducing improper payments while continuing to ensure
Federal programs serve and provide access to their intended beneficiaries. The Order requires
Federal agencies to provide their agency Inspector General detailed information on efforts to
identify and reduce the number of improper payments in Federal programs with the highest
dollar value of improper payments. The Secretary of the Treasury is required to provide specific
information regarding Earned Income Tax Credit (EITC) improper payments to the Office of
Management and Budget and the Treasury Inspector General for Tax Administration (TIGTA).
The Executive Order requires the TIGTA to assess the level of risk associated with the EITC
Program, determine the extent of oversight warranted, and provide the IRS Commissioner with
recommendations for modifying the IRS’s plan to reduce EITC improper payments.

The Improper Payments Elimination and Recovery Act of 2010 amends the
Improper Payments Act of 2002
On July 22, 2010, President Obama signed into law the Improper Payments Elimination and
Recovery Act of 20102 (IPERA). The IPERA amends the Improper Payments Information Act
of 2002 by redefining the definition of “significant improper payments” and strengthening
agency reporting requirements. The IPERA requires the TIGTA to review annually the IRS’s
compliance with the IPERA reporting requirements. The TIGTA report is due within 120 days
of the issuance of the Department of the Treasury agency financial report.




1
    Pub. L. No. 107-300, 116 Stat. 2350.
2
    Pub. L. 111-204.
                                                                                          Page 1
                   The Internal Revenue Service Is Not in Compliance With All
                 Improper Payments Elimination and Recovery Act Requirements



IPERA process to identify IRS programs for improper payment risk assessment
The Department of the Treasury identified the programs for which the IRS must assess the risk
of improper payments. The IRS uses an Improper Payments Elimination and Recovery Risk
Assessment Questionnaire for Fiscal Year (FY)3 2011 (the Questionnaire) developed by the
Department of the Treasury to assess the level of risk within each of the identified programs.
The Questionnaire assigns a risk score to each program based on the IRS’s response to the
questionnaire. The level of risk for improper payments for the program is then based on risk
score ranges established by the Department of the Treasury. For example, the Department of the
Treasury considers programs with a risk score of 0 to 11 as low risk, 12 to 28 as medium risk,
and 29 and greater as high risk. The IRS is required to forward the results and documentation for
all risk assessments to the Department of the Treasury. Appendix IV provides a list of the IRS
programs the Department of the Treasury identified for an improper payment risk assessment.
For any program identified as having a high risk for improper payments, the IRS must provide
the following information to the Department of the Treasury for inclusion in the Department’s
agency financial report:
       The rate and amount of improper payments.
       The root causes of the improper payments.
       Actions taken to address the root causes.
       Annual improper payment reduction targets.
       A discussion of any limitations to the IRS’s ability to reduce improper payments.
During the course of this review, we were provided with documentation showing risk
assessments were performed for each of the programs that the Department of the Treasury
required the IRS to assess. The EITC is the only high-risk program the IRS has identified and
the only program with information included in the agency financial report.

The IRS uses results from its National Research Program (NRP) to compute the
improper payment estimate for the EITC
The IRS used results from its NRP to estimate the FY 2011 EITC improper payment rate. The
NRP data are used to estimate the total EITC overclaims and total EITC claims. IRS
management indicated that the NRP is the primary source of data the IRS uses to estimate
taxpayer EITC behavior for the purpose of estimating the improper payment rate. The NRP
provides the IRS with compliance information that is statistically representative of the taxpayer
population.

3
 A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                   Page 2
                    The Internal Revenue Service Is Not in Compliance With All
                  Improper Payments Elimination and Recovery Act Requirements



In 2007, the IRS began the process of updating its NRP data by reviewing a stratified, randomly
selected sample of individual tax returns. The IRS will use each year’s NRP results to update the
improper payment rate. Although the updated NRP process will result in a more current estimate
of the accuracy of EITC claims, the estimated improper payment rate for a given fiscal year will
not be based on current year data. Because of the time it takes to complete the annual NRP, the
IRS’s annual estimate will be based on data that are approximately three years old. For example,
improper payment estimates for FY 2011 are based on Tax Year4 2007 tax returns.
The scope of this review was limited to an assessment of EITC information the IRS provided for
inclusion in the Department of the Treasury Agency Financial Report Fiscal Year 2011 as this
was the only high-risk program identified by the IRS. The next phase of our review will assess
the accuracy and sufficiency of the IRS’s preparation of the Improper Payments Elimination and
Recovery Risk Assessment Questionnaire for those programs that were not identified as having a
high risk for improper payments.
This review was performed at the IRS Headquarters in Washington, D.C., in the Office of
Research, Analysis, and Statistics and in the Office of the Chief Financial Officer during the
period November 2011 through February 2012. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




4
 A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                         Page 3
                    The Internal Revenue Service Is Not in Compliance With All
                  Improper Payments Elimination and Recovery Act Requirements




                                     Results of Review

The Internal Revenue Service Is Not in Compliance With All Improper
Payments Elimination and Recovery Act Requirements
Our review determined that the IRS did not provide all required IPERA information to the
Department of the Treasury for inclusion in the Department of the Treasury Agency Financial
Report Fiscal Year 2011. Figure 1 provides a summary of our evaluation of IRS compliance
with the IPERA.
           Figure 1: IRS Compliance With Improper Payment Requirements
                      for the Earned Income Tax Credit Program5
                                                                                                Provided by
                                  IPERA Requirement
                                                                                                  the IRS
Conduct a program-specific risk assessment for each program or activity that conforms                Yes6
with Section 3321 of Title 31 U.S.C.
Publish an improper payment estimate for the EITC.                                                    Yes
Publish a programmatic corrective action plan for the EITC.                                           Yes
Describe the steps taken to ensure the agency managers and programs are held                          Yes
accountable for eliminating and reducing improper payments.
Publish annual reduction targets for the EITC and discuss progress toward meeting                     No
those targets.
Report an improper payment rate of less than 10 percent for the EITC.                                 No
Report on efforts to recapture EITC improper payments.                                                Yes
Source: The TIGTA’s review of IRS EITC information provided to the Department of the Treasury for inclusion in
the Department of the Treasury Agency Financial Report Fiscal Year 2011 issued November 15, 2011.

According to the IPERA, agencies that are not in compliance with the requirements in Figure 1
must submit a plan to Congress describing the actions that the agency will take to become
compliant.


5
  The scope of this assessment was limited to an evaluation of the completeness of the improper payment
information provided by the IRS to the Department of the Treasury.
6
  During the course of this review, we were provided with documentation showing risk assessments were performed
for each of the programs the Department of the Treasury required the IRS to assess. The next phase of our review
will assess the accuracy and sufficiency of the performance of these risk assessments.
                                                                                                         Page 4
                   The Internal Revenue Service Is Not in Compliance With All
                 Improper Payments Elimination and Recovery Act Requirements




Noncompliance with IPERA reporting requirements increases the risk that the IRS
will not significantly reduce EITC improper payments
As we previously reported, the IRS has made little improvement in reducing EITC improper
payments since being required to report estimates of these payments to Congress in 2002.7 The
IRS acknowledges that further reductions in the EITC error rate will be difficult to achieve.
Figure 2 presents the IRS’s estimated EITC improper payments for FY 2003 through FY 2011.
           Figure 2: EITC Improper Payments for Fiscal Years 2003 to 2011
                   Minimum               Maximum                Minimum                   Maximum
                   Improper              Improper               Improper                  Improper
Fiscal Year
                  Payments8             Payments             Payments Dollars          Payments Dollars
                  Percentage            Percentage                  (Billions)                (Billions)

    2003               25%                   30%                      $9.5                     $11.5
    2004               22%                   27%                      $8.6                     $10.7
    2005               23%                   28%                      $9.6                     $11.4
    2006               23%                   28%                      $9.8                     $11.6
    2007               23%                   28%                     $10.4                     $12.3
    2008               23%                   28%                     $11.1                     $13.1
    2009               23%                   28%                     $11.2                     $13.3
    2010               24%                   29%                     $15.3                     $18.4
    2011               21%                   26%                     $13.7                     $16.7
Source: Department of the Treasury Performance and Accountability Reports for FY 2003 through FY 2010 and
the FY 2011 Agency Financial Report.

Although the IRS reported a slightly lower EITC improper payment rate for FY 2011, IRS
management informed us that the decrease in the FY 2011 improper payment rate cannot
necessarily be attributed to a reduction in the amount of EITC improper payments. A number of
factors can cause the improper payment rate and resulting dollar estimate to fluctuate from year
to year. For example, the IRS changed the way it estimates EITC improper payments since it
first began reporting the estimate in FY 2003. Prior to FY 2010, the IRS computed a range for
the EITC improper payment rate using two basic assumptions.


7
  TIGTA, Ref. No. 2011-40-023, Reduction Targets and Strategies Have Not Been Established to Reduce the
Billions of Dollars in Improper Earned Income Tax Credit Payments Each Year pp. 3–4 (Feb. 2011).
8
  For FY 2005 through FY 2009, the IRS computed the minimum and maximum improper payment rates (referred to
as the upper and lower bounds) using different sets of assumptions concerning the compliance of EITC claimants
who fail to show up for the NRP audit.
                                                                                                       Page 5
                   The Internal Revenue Service Is Not in Compliance With All
                 Improper Payments Elimination and Recovery Act Requirements



       The IRS computed the maximum improper payment rate using the assumption that the
        EITC claims of individuals who did not respond to the IRS notice of audit were incorrect,
        thus resulting in an overpayment.
       The IRS computed the minimum improper payment rate using an overpayment amount
        for those taxpayers who did not respond to the notice of audit. This overpayment amount
        was computed using the assumption that the audit results for taxpayers who did not
        responded to the notice of audit were the same as those who did respond.
In FY 2010, continuing to use data gathered annually through the NRP, the IRS began using a
new methodology for computing the improper payment amount. The annual sample along with
the new methodology allows the IRS to calculate a point estimate for the improper payment
amount with three percent precision and a 90 percent confidence rate as required by the IPERA.
This new methodology accounts for the taxpayers who do not respond to the notification of audit
through the application of sophisticated statistical formulas and techniques rather than the
previous assumptions that were used.
In addition, legislative changes to the EITC and changes in the economy also directly impact the
number and amount of EITC claims filed each year. The estimated improper payment rate and
resulting dollar estimate will increase or decrease as the number of EITC claims received in a
given tax year increases or decreases.
Quantifiable targets to reduce EITC improper payments were not established as required by
the IPERA
Of continued concern is the IRS’s noncompliance in establishing required quantifiable targets to
reduce EITC improper payments. In our February 2011 report, the IRS agreed with our
recommendation to establish EITC improper payment reduction targets.9 In their response, IRS
management stated that the IRS’s return preparer initiative is its most promising avenue to
substantially reduce erroneous EITC payments. Management noted that the IRS was in the first
year of a three-year ramp-up of this initiative and indicated that the IRS will have a baseline
against which it can set meaningful reduction targets after the program is fully established.
However, the IRS did not provide details on when or how it plans to measure the impact of the
tax return preparer strategy on EITC improper payments.
As we noted in our previous report, the IRS had just begun implementing the tax return preparer
strategy and did not anticipate the strategy would be fully implemented until 2014. According to
information contained in the Department of the Treasury Agency Financial Report Fiscal Year
2011, the IRS estimates it will pay an additional $35 billion to $43 billion in improper EITC
payments in FYs 2012 through 2014. Without targets to reduce EITC improper payments as


9
 TIGTA, Ref. No. 2011-40-023, Reduction Targets and Strategies Have Not Been Established to Reduce the
Billions of Dollars in Improper Earned Income Tax Credit Payments Each Year pp. 6–8 and 10 (Feb. 2011).
                                                                                                      Page 6
                   The Internal Revenue Service Is Not in Compliance With All
                 Improper Payments Elimination and Recovery Act Requirements



required by the IPERA, there is a lack of accountability for the IRS to eliminate payment error,
waste, fraud, and abuse.

The Estimate of the Earned Income Tax Credit Improper Payment Rate
Provides a Reasonable Estimate of Overclaims
The methodology used to compute the FY 2011 EITC improper payment rate provides a
reasonable estimate of the percentage and amount of EITC overpayments. The formula used by
the IRS to compute the EITC improper payment rate is shown in Figure 3.
                      Figure 3: EITC Improper Payment Rate Formula

                       Total Overclaims – Total Claims Protected/Recovered
                                       Total EITC Claims

 Total Overclaims – the difference between the amount of the EITC claimed by the taxpayer on his or
 her tax return and the amount the taxpayer should have claimed.
 Total Claims Protected/Recovered – the amount the IRS prevents (protects) in EITC overclaims
 through various activities including math error processing and pre-refund examinations. This data
 element also includes the amount the IRS recovers in overclaims that were erroneously paid. Recovery
 activities include Automated Underreporter examinations and post-refund examinations.

 Total EITC Claims – the amount of EITC claimed on all tax returns.

Source: IRS Improper Payment Estimates for the Earned Income Tax Credit: Methodology for the
Fiscal Years 2011–2014 Update dated July 2011.

The IRS uses the results of audits conducted as part of the NRP to estimate the EITC improper
payment rate. The IRS Office of Research, Analysis, and Statistics determined the EITC sample
size and selected a statistically valid sample of 2,219 tax returns with EITC claims filed during
Tax Year 2007. The IRS Examination function conducted detailed audits of the sampled tax
returns. The Office of Research, Analysis, and Statistics then used the results of the audits to
estimate the EITC overclaims, EITC claims recovered, and total EITC claims for the formula in
Figure 3.
Our analysis of these estimates shows that the IRS accurately reflects the results of the audits that
were conducted for the purpose of estimating the EITC improper payment rate. In addition, our
statistician independently verified that the NRP sample size is sufficient to measure the statistical
reliability of results. The statistician also concluded that the related formulas and calculations
were accurate and consistent and that a multiyear strategy is an acceptable approach to conduct
the study. Finally, the statistician concluded that the formula used to compute the EITC
overpayment rate will provide a reasonable estimate of EITC overpayments.

                                                                                               Page 7
                 The Internal Revenue Service Is Not in Compliance With All
               Improper Payments Elimination and Recovery Act Requirements



However, as we have previously reported, the EITC improper payment calculation does not
include an estimate of EITC underpayments. Underpayments include EITC payments made to
individuals that are less than the individual is entitled to receive. By not including EITC
underpayments in the estimate of EITC improper payments, the IRS could be understating the rate
and/or dollar value of improper payments being made. The IRS disclosed in the FY 2011 Agency
Financial Report that it did not include EITC underpayments in its estimate of EITC improper
payments. The report states that underpayments were not included because they “do not appear
with sufficient frequency in the statistically valid test data to have a measurable effect on the
estimate.”
In our prior review, we recommended that the Deputy Commissioner for Operations Support use
the NRP sample to estimate instances in which the IRS incorrectly pays less in the EITC than the
taxpayer claims (underpayments). IRS management agreed in concept with this recommendation
and will explore whether using the NRP sample is possible and practical. IRS management
indicated that underpayments happen so infrequently in the NRP sample that the IRS may be
unable to use NRP audit results to construct a statistically valid estimate of a population total.




                                                                                           Page 8
                    The Internal Revenue Service Is Not in Compliance With All
                  Improper Payments Elimination and Recovery Act Requirements



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to to assess the IRS’s compliance with the IPERA.1 The
IPERA requires the TIGTA to review annually the IRS’s compliance with the IPERA reporting
requirements.
The scope of this review was limited to an assessment of the information the IRS provided for
inclusion in the Department of the Treasury Agency Financial Report Fiscal Year 2011. The
next phase of our review will assess the accuracy and sufficiency of the IRS’s improper payment
risk assessment and evaluation process.
To accomplish our objective, we:
I.      Determined if the Department of the Treasury Agency Financial Report Fiscal Year 2011
        complied with the IPERA reporting requirements. We compared the information
        contained in the agency financial report to the IPERA reporting requirements outlined in
        Office of Management and Budget Circular A-123, Management’s Responsibility for
        Internal Control, guidance on improper payment reporting. We also compared the
        information provided by the IRS to the Department of the Treasury to the information
        contained in the agency financial report to ensure the information was accurately
        reflected in the report. In addition, we reviewed prior TIGTA audit reports on the IRS’s
        compliance with improper payment reporting requirements.
II.     Evaluated the accuracy and reasonableness of the IRS’s estimate of the EITC improper
        payment rate. We assessed the statistical validity of the methodology the IRS used to
        estimate the EITC overclaims and total EITC claims used to compute the EITC improper
        payment rate. We also compared the EITC overclaims provided by the Office of
        Research, Analysis, and Statistics for the statistically valid sample of 2,219 EITC claims
        to the EITC overclaim amounts on the IRS Master File2 to ensure the data used by the
        IRS to compute the EITC overclaim rate was valid. In addition, we reviewed prior
        TIGTA audit reports on the validity of the IRS’s sample selection and design for the
        NRP.




1
 Pub. L. 111-204.
2
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 9
                  The Internal Revenue Service Is Not in Compliance With All
                Improper Payments Elimination and Recovery Act Requirements



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: controls in place to ensure the IRS met the
reporting requirements established in the IPERA.




                                                                                           Page 10
                The Internal Revenue Service Is Not in Compliance With All
              Improper Payments Elimination and Recovery Act Requirements



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Deann L. Baiza, Audit Manager
Karen C. Fulte, Senior Auditor
Sandra L. Hinton, Senior Auditor
Lawrence R. Smith, Senior Auditor
Evan A. Close, Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                    Page 11
                The Internal Revenue Service Is Not in Compliance With All
              Improper Payments Elimination and Recovery Act Requirements



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Assistant Deputy Commissioner for Operations Support OS
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Deputy Director, Office of Research, Analysis, and Statistics RAS
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Earned Income Tax Credit, Wage and Investment Division SE:W:ETARC:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PEI




                                                                                     Page 12
                  The Internal Revenue Service Is Not in Compliance With All
                Improper Payments Elimination and Recovery Act Requirements



                                                                             Appendix IV

       Internal Revenue Service Programs Identified
          for Improper Payment Risk Assessments

The following IRS programs were identified by the Department of the Treasury for improper
payment risk assessments for FY 2011.
                                                                            Level of Risk
IRS Program                                      Type of Program
                                                                             Identified
Refund Collection                                    Revenue                     Low
Stimulus Disbursements                               Revenue                     Low
Earned Income Tax Credit Disbursements               Revenue                     High
Child Tax Credit Payments                            Revenue                     Low
Health Care Credit Payments                          Revenue                     Low
Alternative Minimum Tax Credit Refunds               Revenue                     Low
Home Buyers Credit Refunds                           Revenue                     Low
Corporation Refunds                                  Revenue                     Low
Recovery Act Payments                                Revenue                     Low
Grants for Investments in Qualified Theraputic       Revenue                     Low
Projects in Lieu of Tax
Informant Reimbursement                              Revenue                     Low
Affordable Health Care Program                     Administrative                Low
Recovery Act Administrative Expenses               Administrative                Low
Taxpayer Services                                  Administrative                Low
Tax Law Enforcement                                Administrative                Low
Operations Support                                 Administrative                Low
Information Technology Investments/                Administrative                Low
Business Systems Modernization
Health Insurance Tax Credit                        Administrative                Low
Federal Tax Lien Revolving Fund                    Administrative                Low


                                                                                        Page 13
                  The Internal Revenue Service Is Not in Compliance With All
                Improper Payments Elimination and Recovery Act Requirements




                                                                Level of Risk
IRS Program                                 Type of Program
                                                                 Identified
Special Fund User Fees                       Administrative         Low
Private Collection Agent Program             Administrative         Low
Department of Transportation Federal         Administrative         Low
Highway Administration Allocation Account




                                                                          Page 14
     The Internal Revenue Service Is Not in Compliance With All
   Improper Payments Elimination and Recovery Act Requirements



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 15
